 

IN THE
Supreme Court of the Anited States

DONALD J. TRUMP,
PRESIDENT OF THE UNITED STATES, ET AL.,

Petitioners,
v.
SIERRA CLUB, ET AL.,

Respondents.
RULE 33.1(h) CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Federal
Courts Scholars as Amici Curiae in Support of Respondents contains 7,675 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 19, 2021.

 

Counsel for Amici Curiae
